              U.S. DEPARTMENT OF THE INTERIOR
                 OFFICE OF INSPECTOR GENERAL




                  EVALUATION
   OF THE USE OF PERFORMANCE INFORMATION
       IN THE BUREAU OF INDIAN AFFAIRS
          OFFICE OF JUSTICE SERVICES




ER-RR-BIA-0003-2008               APRIL 2009
     EVALUATION OF THE USE OF PERFORMANCE INFORMATION
              IN THE BUREAU OF INDIAN AFFAIRS
                 OFFICE OF JUSTICE SERVICES

                                                   TABLE OF CONTENTS

Introduction ..........................................................................................................................1

           Why We Did This Evaluation ..................................................................................1

           Objectives ................................................................................................................1

           Scope and Methodology ..........................................................................................1

           How We Structured This Report..............................................................................2

           Overview of the BIA Office of Justice Services ......................................................2

Results of Evaluation ...........................................................................................................4

           Past-Based Budgeting: Extending Shortfalls into the Future ..................................5

           Unreliable Performance Information:
           Basing Decisions on Inadequate Data......................................................................7

           Evaluation and Oversight: Balancing Insight with Independence ...........................8

           Insufficient Interagency and Intergovernmental Coordination:
           Falling Short in Efforts to Serve Indian Country Communities ............................10

Conclusion .........................................................................................................................11

Appendixes

           Selected Prior Coverage .......................................................................................... A
           Sites Visited or Contacted....................................................................................... B
           Table of Suggestions ............................................................................................... C



ON THE COVER:
OIG staff photos from (clockwise from top left) Tohono O’odham, Salt River Pima
Maricopa, San Carlos Apache, and White Mountain Apache reservations in Arizona.


                                                                     ii
                                    INTRODUCTION

WHY WE DID THIS EVALUATION
Officials of the Department of the Interior (DOI) asked the Office of Inspector General (OIG)
to evaluate the use of performance information by the Bureau of Indian Affairs (BIA or
Bureau) Office of Justice Services (OJS) in light of recent and anticipated budget increases
and related Congressional interest in Indian Country law and order. Recent OIG reports, as
cited in Appendix A, highlight significant challenges OJS faces, as well as shortcomings in
program management. As OJS implements strategies to address these concerns, DOI and
OIG both seek to ensure that funds are wisely spent, goals and objectives for performance are
appropriately established, and program results are reliably measured.


OBJECTIVES
In many respects, this report is a close follow-on to our 2007 evaluation of the BIA Law
Enforcement Program (Report Number Y-RR-BIA-0004-2006), which focused on specific
actions recommended by the Office of Management and Budget (OMB). Our objectives for
this evaluation were to assess the Bureau’s efforts to reduce crime through the effective
allocation of fiscal and human resources and to examine how program officials use
performance data in making asset deployment decisions.


SCOPE AND METHODOLOGY
Approach. To meet the objectives, we reviewed pertinent documentation and met with
federal and tribal officials at selected sites to discuss current approaches to resources
allocation, as well as the availability, reliability, and use of program performance
information. See Appendix B for a complete list of sites visited or contacted.

Standards. We conducted our review from July to November 2008, in accordance with the
“Quality Standards for Inspections” established by the former President’s Council on
Integrity and Efficiency.

Limitations.

   1) Our evaluative work focused solely on BIA and tribal activities funded through OJS.
      Further, in keeping with OJS funding levels, our work generally emphasized law
      enforcement operations and corrections over other functions. Readers should
      understand that successful law enforcement requires effective interaction, not only
      within various public safety and justice elements but also between these elements and
      many other community resources.



                                             -1-
   2) Our fieldwork focused on the BIA Law Enforcement District Office in Phoenix,
      Arizona, and four associated reservations. From these, we identify general themes
      significant to our evaluation objectives but caution that specific observations may not
      be applicable to other reservations or districts.

   3) Excerpts selected from our field notes (see sidebar on page 4) do not come from a
      single reservation. Neither are they descriptive of all reservations.

   4) Though we have collected some statistical information from BIA and selected tribes
      to improve our understanding of OJS data collection processes, we did not audit the
      data for accuracy.


HOW WE STRUCTURED THIS REPORT
Following a brief overview of OJS, we discuss budget development, performance data,
oversight mechanisms, and interagency coordination. We also present six suggestions
designed to help OJS meet the challenges it faces (see Appendix C for a complete listing).


OVERVIEW OF THE BIA OFFICE OF JUSTICE SERVICES
OJS is responsible for law enforcement and public safety throughout much of Indian
Country. Six separate divisions make up OJS:

    Law Enforcement Operations provides uniformed police and investigative services
     and combats serious crimes through 191 field agencies. OJS operates 42 of these
     agencies directly and contracts operation of the remaining 149 agencies to tribes.
     These contracts are authorized by Public Law 93-638, the Indian Self-Determination
     Act, and are known as “PL-638 contracts.”

    Corrections provides detention services for many tribal communities. According to
     OJS, DOI provides funding for 62 tribally-operated and 19 direct-service detention
     facilities that house inmates who, generally, are awaiting adjudication or serving
     sentences of less than 1 year. Some offenders may serve beyond a year if sentenced to
     consecutive terms.

    Drug Enforcement specializes in counter-drug investigations, information gathering,
     and capacity building to help stem the flow of illegal drugs in and through Indian
     Country.

    Tribal Justice Support fosters the establishment and development of tribal court
     systems and codes of law. In addition, BIA helps provide judicial services for tribes
     that do not have tribal courts and do not fall under State jurisdiction. Assistance
     given is through the Courts of Indian Offenses established under title 25 of the Code
     of Federal Regulations.
                                            -2-
    The Indian Police Academy provides police, criminal investigation, and detention
     officer training for OJS and tribal officers at the Department of Homeland Security
     (DHS) Federal Law Enforcement Training Center.

    Professional Standards reviews case files of criminal investigations units, conducts
     inspections of detention centers, and investigates allegations of wrongdoing by BIA
     and tribal police.

For fiscal year (FY) 2008, the Congress appropriated over $228 million to fund OJS.
Additionally, several million dollars were appropriated for repairs and improvements at
public safety and justice facilities — including detention centers, police operations centers,
courtrooms, and office space. The Indian Affairs Office of Facilities Management and
Construction (OFMC) managed the facilities funding.

FY 2008 funding increased by
about $25 million from the
FY 2007 level. The chart to the
right depicts how OJS officials
allocated this increase among six
priority areas.

Further, the Congress has already
authorized and appropriated
hundreds of millions of additional
dollars to address law and order
and other critical issues in Indian
Country. With increased funding
comes a heightened need for
transparency in and accountability
for the effective use of public
funds.




                                                  Distribution of Budget Increase




                                              -3-
                            RESULTS OF EVALUATION
In much of Indian Country, ensuring the
safety of citizens is an important federal
responsibility. Yet today, we do not measure
public safety on Indian reservations by the
occurrence of violent crimes. Rather, we
measure it by how many times worse than
the national average violent crime rates seem
to be.

BIA statistics indicate that scores of
communities experience violent crime at
more than double the national average. In            Tribal Police Vehicle     OIG Staff Photo
fact, about two dozen Indian Country
communities endure violent crime estimated              Notes from the Field
at more than 10 times the national average
— a truly deplorable situation.                     During this evaluation, we visited a few
                                                    select reservations and heard many
   I have testified before this Committee a         interviewees voice their concerns about
   number of times, and I have tried not to         conditions in Indian Country. What we
   varnish over the situation that we have          found is disturbing:
   with regard to public safety in Indian           PUBLIC SAFETY AT RISK: A BIA
   Country. It is a national disgrace.              investigator commented that once a fight
                                                    starts, often between friends, the beating
       — W. Patrick Ragsdale,                       continues with indescribable brutality,
       Deputy Director of BIA, testifying           even after the victim is dead.
       before the Senate Committee on
       Indian Affairs in June 2008                  INUNDATED COURTS: A chief judge
                                                    stated that the system cannot handle the
Police, courts, and corrections programs each       caseload. The same perpetrators appear
represent a part of a larger system established     over and over again.
to protect the populace. Each part of the
                                                    LACK OF SOCIAL SERVICES
system faces daunting challenges,
particularly in Indian Country. Shortcomings        SUPPORT: A corrections supervisor,
— or even successes — in one area can               when asked about programs supporting
exacerbate problems elsewhere. An                   the inmates, simply responded with "No.”
enforcement initiative implemented by police        A GENERATION VULNERABLE
can overwhelm a backlogged court or a
                                                    TO DRUG ABUSE: A chief judge
crowded detention facility. Corrections
programs that lack appropriate rehabilitative       expressed his fear and sadness about what
services release inmates who will predictably       the next generation will bring. He has the
offend again. In light of such circumstances,       sense that with methamphetamines, the
policymakers must ensure that scarce                violence will not end.
resources are applied effectively.

                                              -4-
PAST-BASED BUDGETING: EXTENDING SHORTFALLS INTO THE FUTURE
BIA has made some improvements since our 2007 report on the BIA Law Enforcement
Program. We suggested then that BIA 1) work to realign resources within the base Program
before requesting additional funding and 2) implement more rigorous requirements analysis.
With regard to resources, we stated:

       The Program’s base funding should … be managed with the goal of
       maximizing performance by deploying law enforcement resources where they
       are needed most, but we found no evidence of significant changes in the 98
       percent of Program funds that constitute the base budget. Analysis of
       performance information does not seem to have resulted in permanent
       realignment of resources from relatively “low crime, high staff” offices to
       “high crime, low staff” offices.

In FY 2008, OJS documented a resource
allocation methodology for $25 million in
new funding — about 11 percent of the
total budget. Using this methodology, OJS
officials considered a combination of
factors, including the geographic extent of
the reservation and the volume of drugs
seized, in addition to the reported violent
crime rates and police staffing ratios. This
methodology enabled OJS to list certain
“high crime/high staffing need” programs
and to provide additional funds
                                                      TOPD Evidence Room      OIG Staff Photo
accordingly. The White Mountain Apache
Tribe, for example, topped the list and was           Law Enforcement Agencies
authorized an additional 10 police officers               in Indian Country
— positions that, when filled, will bring the           Face Many Challenges
reservation up to the identified benchmark
of 2.6 officers per 1,000 population.             Although Customs and Border Protection
Though use of a staffing ratio is a               officers patrol the international border,
simplistic approach to requirements               the Tohono O’odham Police Department
definition, the benchmark is based on “non-       (TOPD) handles scores of autopsies,
metropolitan area” statistics from the            hundreds of weapons, and thousands of
Federal Bureau of Investigation (FBI) and         pounds of contraband (some stored in the
is a more reasonable general comparator           TOPD evidence room as pictured here)
than BIA has used in the past.                    due to trafficking of undocumented
                                                  migrants and illegal drugs across the
Nevertheless, room for further                    reservation. This work drains resources
improvement exists. For example, the              from TOPD’s community policing
threshold OJS set for the drug seizure              i i



                                                -5-
statistic was so low that the reservations in every State were tagged as “high level.” With no
distinction made among reservations, this statistic is useless in assessing relative needs. In
the future, a higher threshold or a series of thresholds could help officials more effectively
target resources toward areas with greater needs.

Also, some funding decisions seem inconsistent with available statistics and field managers’
input. For example, OJS reportedly provided one reservation $150,000 in “high priority”
funding when crime statistics, workload data, and senior district officials failed to support
this particular reservation as facing the greatest needs. While many other considerations
legitimately affect such decisions, we believe that district and field officials could benefit
from more proactive communication regarding key decisions made and the rationale
supporting these decisions.

Most significantly, budget execution models (spending plans developed at each BIA field
agency) list costs associated with on-board staff and any authorized vacancies that are
required to maintain a “minimum safe level” of operations. This may mean that, in some
cases, not all currently authorized vacancies are included. In other cases, critical
needs — those required to bring operations from dire underperformance to the “minimum
safe level” — may continue to go unidentified and unfulfilled.

Tribal departments and BIA field agencies both face difficulties in recruiting and retaining
personnel, especially in remote locations. Budget execution models effectively constrain
field staffing to, at best, current levels. Each field agency uses the previous year’s funding
level as the total estimate to operate in the next fiscal year. This approach does not take into
account existing operational capacity shortfalls or growing demands. We do not believe that
budgeting based on the past is the best approach for a Program with a funding history
characterized by its manager as disgraceful.

During this evaluation, OJS did provide some training to District officials on how to better
use the models and identify unmet needs. Clear identification of needs would require
consistent communication as to the appropriate tools and procedures.

               OIG Suggestion: BIA and OJS should continue to refine budget
               formulation processes by accounting for existing shortfalls in operational
               capacity.

With regard to requirements analysis, BIA must better quantify Indian Country needs to
budget effectively. Not only did we address requirements analysis in our 2007 Law
Enforcement report, we specifically recommended needs-based planning for the Corrections
function in our 2004 report on Indian Country detention facilities, “Neither Safe Nor Secure”
(Report Number 2004-I-0056).

Over the last 2 fiscal years, a total of $14.9 million — 12 percent of funds appropriated for
Corrections — has been diverted to other program areas, mainly to Law Enforcement
Operations. In a report on the allocation of funds, OJS combined the information for these
two program areas. Whatever the intent, this presentation obscures the movement of funds

                                              -6-
and may give the impression of investment in both program areas, rather than disinvestment
from Corrections in favor of Law Enforcement Operations.

Unfortunately, diverting funds from Corrections compounds an already desperate situation.
BIA detention facilities, collectively, require 521 staff members but are only currently
authorized 350. Of the 350 authorized, on-board staffing is routinely less than 40 percent.
OJS officials have budgeted $5 million dollars for contracted bed space to allay some of the
detention demand, but overall, it seems that BIA is struggling to provide the bare minimum
in detention services — shelter and food. The Bureau falls far short of providing
rehabilitation services, such as counseling and education, that are hallmarks of an effective
corrections program. Pressing needs continue to go unmet and real progress toward
correcting the types of deficiencies highlighted in “Neither Safe Nor Secure” has stalled.

BIA has made some effort to engage outside expertise in performing a comprehensive needs
assessment for corrections facilities. An outside consultant worked to assess the current state
of Indian Country detention centers and to recommend strategies, with cost estimates, to
improve this situation. The central recommendations and cost estimation methodologies
employed in the consultant’s draft report yielded a multi-billion dollar price tag, and the
assessment became embroiled in political controversy. DOI and the Office of Management
and Budget (OMB) had many concerns about the report and, for a time, refused to release the
draft — relenting only in the face of a subpoena threat from the Senate Committee on Indian
Affairs. BIA officials insist that they intended to use the consultant’s information and
recommendations as inputs to a long-term process of consultation with tribal leaders to
develop plans and strategies appropriate to the needs of the communities they serve. BIA did
not intend the report to be a “master plan” to be imposed on Indian Country. Now that the
consultant’s findings and recommendations have been made public, officials should carefully
weigh the information in light of fiscal and political realities and engage tribal leaders in
open dialogue about the current and future state of Indian Country corrections.

               OIG Suggestion: OJS and OFMC should review the recent assessment of
               corrections facilities and needs to develop a reasonable range of
               alternatives for management consideration and tribal consultation.

UNRELIABLE PERFORMANCE INFORMATION: BASING DECISIONS ON
INADEQUATE DATA
Managers cannot make sound program decisions if their choices are based on inadequate and
unreliable performance data. In OJS, some improvements in performance measurement have
occurred since our 2007 report. We observed 2 years ago that staffing ratios and crime rates
were based on unreliable population data. This is still the case today, though BIA has
solicited comments on how to improve in its latest “American Indian Population and Labor
Force Report” data call. We also commented on the use of an inappropriate benchmark in
estimating staffing requirements. Recent analyses are based on a more reasonable standard.
Challenges in timely reporting, however, remain an issue, along with inadequate data
validation.


                                             -7-
In terms of late and inaccurate data submissions, OJS uses a Lotus® Notes® database to
enter monthly crime reports that the tribes submit. All BIA field offices submit their data
monthly, while the tribes do not participate fully. Some tribes report only annual totals.
Even in cases where tribes are submitting their crime reports monthly, many are 2 to 3
months behind schedule. OJS, in turn, submits reports to the Indian Affairs Office of
Planning and Policy Analysis on a quarterly basis. These reports are often late and must be
frequently amended to incorporate new data.

In addressing the issue of tribal participation, an official conceded that participation in
monthly crime reporting could be discussed during negotiation of PL-638 annual funding
agreements. The negotiations provide BIA with an opportunity each year to increase the
number of tribes that submit data. BIA regulations do not address monthly reporting, so it is
incumbent upon the awarding officials to include a clear stipulation in the PL-638 contracts.

For some reservations, monthly crime reports and annual summaries include one set of data
from tribal police and another set of data from BIA criminal investigators. The reports
indicate the number of incidents reported in specific categories of crime. Based on these
reports, however, there is no way to discern if both the tribal police and BIA investigators
report the same incident. Therefore, some incidents may be counted twice, which would
result in inflated crime statistics. District officials say they certify only that they have
received data, not that the reports are accurate.

               OIG Suggestion: BIA should 1) include mandates in PL-638 contracts for
               monthly crime report submittal and 2) develop a standardized procedure
               to ensure incidents are not reported more than once.


EVALUATION AND OVERSIGHT: BALANCING INSIGHT WITH INDEPENDENCE
Over the past several years, OJS has shown some success in implementing evaluative
processes in its various programs. For Law Enforcement Operations, as well as Corrections,
Professional Standards provides evaluative information through federal case file management
reviews, detention center inspections, and internal affairs investigations.

For any oversight organization, independence of action is vital to credibility. Because
Professional Standards reports to OJS and is at the same time responsible for reviewing OJS
activities, it is important that their independence be protected from potential undue influence
or the appearance thereof.

The Indian Affairs Office of Internal Evaluation and Assessment (IA/IE&A) is responsible
for reviewing Indian Affairs elements, including OJS. We found, however, that they do not
maintain a regular schedule of reviews. Instead, they rely heavily on Professional Standards
to oversee OJS functions and employees and simply monitor the timeliness of response. We
found only one recent instance in which IA/IE&A believed it necessary to conduct an
investigation (in conjunction with OIG) of senior OJS officials. With the exception of this
single case, we understand that all OJS matters have been referred to OJS for disposition.

                                             -8-
Our recent progress report on DOI's law
enforcement reform efforts (Report Number
PI-AT-MOA-0001-2008) recognizes the central                      Inspections:
role of the DOI Office of Law Enforcement,            Professional Standards cooperates
Security, and Emergency Management                    with the Indian Affairs Division of
(OLESEM) in overseeing law enforcement                Safety and Risk Management and the
programs in DOI’s several bureaus. The                OFMC to complete about 60
OLESEM oversight role needs to be                     inspections each year at Indian
strengthened through more frequent and direct         Country detention centers.
engagement in OJS activities.
                                                        Case File Management
       OIG Suggestion: BIA, IA/IE&A, and
       OLESEM should work together to                         Reviews:
       ensure and protect the independence            Professional Standards reviews
       of evaluative and investigative work.          records for every federal investigation
                                                      conducted by BIA to assure proper
We also looked at how Tribal Justice Support          documentation and to determine case
reviews tribal court systems. Tribal Justice          clearance rates and disposition.
Support has contracted with a third party to field
assessment teams with members who have                       Internal Affairs
many years of experience in tribal courts. The                Investigations:
contractor usually conducts a 2- to 4-day site
visit and prepares a report addressing resource       Professional Standards conducts
needs, the use of federal funds, and other            about 100 investigations each year in
observations and recommendations.                     response to allegations of wrongdoing
Approximately 20 percent of the courts                by BIA or tribal police.
reviewed have developed formal action plans
for improvements recommended by the
contractor.

While these reviews are a positive step toward improving oversight and evaluation, we
question independence in that the contractor negotiates the scope of work with the tribe to be
reviewed. Although this practice may allow a tribe to highlight certain areas of concern, it
could also allow the tribe to bar review of areas that are managed improperly. This potential
limitation restricts the reach of the assessment effort and compromises the assessment team’s
independence of action. Such an approach may have been necessary to overcome resistance
when the evaluation program was initiated, but future assessments should cover a standard
range of program requirements to the maximum extent possible.

       OIG Suggestion: BIA should work with the tribes to develop and implement new
       requirements in PL-638 contracts that strengthen the independence of tribal
       court review teams in conducting complete, standardized assessments.




                                              -9-
INSUFFICIENT INTERAGENCY AND INTERGOVERNMENTAL COORDINATION:
FALLING SHORT IN EFFORTS TO SERVE INDIAN COUNTRY COMMUNITIES

OJS depends upon many other agencies and community resources for services
throughout Indian Country. In discussing interagency coordination, officials at various
levels — national, district, and field —
described a wide variety of circumstances.
                                                                  Promising
In some communities, controversy may arise                       Development
between reservation police and their
off-reservation counterparts. This relationship        One promising development in OJS is the
differs from State to State and from                   significant expansion of its Counter-Drug
reservation to reservation. Our work for this          Program, which is meeting a complex
evaluation focused on selected reservations in         problem with a multi-faceted strategy.
Arizona, where tribal police — as fully
recognized peace officers — can act to enforce         First, BIA’s drug enforcement team is
both tribal and State laws. Tribal officers in         growing substantially, with field agents
other States may not enjoy the same standing,          assigned to interagency task forces.
which would negatively affect their ability to         These task forces are established to share
carry cases through to successful prosecution          intelligence and leverage capabilities to
in the appropriate venue.                              interdict the flow of drugs across
                                                       reservation, state, and international
Another area of concern is the lack of                 borders. This enables OJS to target not
coordination between BIA and DOJ in the                only street-level offenders, but also the
grants-making process for Indian Country               powerful cartels that may be fueling
detention facilities. Officials from both OJS          criminal activity on a very broad scale.
and OFMC say they do not receive adequate
communication from DOJ regarding tribes that           Second, the Program has funded school
have applied for grants. BIA possesses                 resource officers on 18 reservations. This
contextual information about tribal                    provides not only a proactive community
communities that could be useful in the DOJ            policing presence but also some ability to
grant issuance process. Too often, however,            monitor for gang-related activities,
DOJ funds facilities construction without              including trafficking and recruitment.
consulting OJS/OFMC officials when
selecting a grant recipient or planning and            Third, OJS has developed an innovative
designing a facility. This leads to tribes             equipment-for-information exchange
building facilities that BIA cannot afford to          program whereby tribal police are loaned
operate. It might take 2 or more years for BIA         state-of-the-art surveillance equipment if
to begin to address funding and staffing               they share investigative information with
requirements at such facilities. Perhaps worse         BIA. OJS plans to hire a crime analyst to
is the state of the juvenile service center at         examine this information and other
Duck Valley (Owyhee). Even if a fully trained          sources of intelligence to identify trends
staff were available to run the facility, it could     and linkages that might help focus future
not — and may never — open due to                      law enforcement efforts more effectively. 
substandard engineering.


                                              - 10 -
With regard to delivery of health services, education, and other programs for inmates, BIA
Corrections officials rely on outside organizations. Of particular note is their dependence, in
many locations, on the Indian Health Service (IHS) to provide medical clearance for
incoming inmates, as well as ongoing medical and dental care. According to BIA officials,
the level of service available from IHS and the degree of cooperation can vary greatly from
one reservation to another. Like many federal programs, IHS has fiscal constraints, and
service to inmates is but one requirement amid a range of competing priorities.

In our 2007 report, we suggested that OJS officials meet regularly with DOJ officials to
review key planning processes, exchange pertinent information, and identify common goals
and priority initiatives. A similar need exists with regard to IHS. A high-level memorandum
of understanding between departments and a visible commitment from senior officials could
catalyze field staff negotiation and implementation of more specific memorandums of
agreement that detail services appropriate to the needs of Indian Country communities.
Indeed, in authorizing the $2 billion Emergency Fund for Indian Safety and Health last year,
the Congress stipulated that the Secretary of the Interior, the Attorney General, and the
Secretary of Health and Human Services (HHS) consult with Indian tribes and jointly
establish a long-term plan to address myriad needs in Indian Country.

               OIG Suggestion: DOI senior officials should work with their counterparts
               in DOJ, HHS, and other agencies, as necessary, to 1) coordinate federal
               action in Indian Country and 2) direct program officials at national and
               field levels to coordinate services across organizational boundaries as
               appropriate.


                                      CONCLUSION
In our evaluation of OJS, we have discussed a budget development process too reliant on
recent history, rather than on a strategic view of requirements in Indian Country
communities. We have described a management system that, despite ongoing efforts,
delivers incomplete and largely unverified — and, thus, unreliable — information. We have
commented on the need for accountability and transparency. Finally, we have noted a need
for strong leadership and the interplay of numerous agencies.

Most importantly, however, we must emphasize the continuing, critical need for effective
investment and management. The success or failure of OJS affects the safety of millions of
Americans.




                                             - 11 -
                 APPENDIX A: SELECTED PRIOR COVERAGE

                                  Disquieting State of Disorder: An Assessment of
                                  Department of the Interior Law Enforcement
                                  In 2002, the OIG completed an assessment of DOI’s law
                                  enforcement programs. Report Number 2002-I-0014 revealed
                                  that the bureaus had a long history of providing minimum
                                  oversight of and direction to their law enforcement programs.
                                  The degree of autonomy associated with decentralized law
                                  enforcement management had led to inconsistent priorities,
                                  lack of coordination, and employee frustration. The results of
                                  the assessment were presented to then-Secretary Norton, who
                                  directed important reforms.



Neither Safe Nor Secure: An Assessment of Indian
Detention Facilities
In 2004, we completed an assessment focused on detention
facilities operated or funded by BIA. Report Number
2004-I-0056 brought to light a long history of neglect and
apathy on the part of BIA officials that had resulted in serious
safety, security, and maintenance deficiencies at many Indian
Country detention facilities. Because these conditions were
potentially life-threatening, the Inspector General issued an
interim report to the Secretary and testified before the U.S.
Senate Committee on Indian Affairs months before the final
report was issued.


                                   Progress Report: Secretary’s Directives for
                                   Implementing Law Enforcement Reform
                                   As part of our ongoing examination of DOI’s law enforcement
                                   programs, we issued a report in 2006 detailing the progress
                                   made toward implementing Secretarial directives for law
                                   enforcement reform. Report Number PI-EV-MOI-0001-2006
                                   disclosed that the pace of implementing these directives was
                                   slow. Although well-intentioned, OLESEM was struggling
                                   with its policy and oversight role, and some bureaus’ actions
                                   demonstrated reluctance to fully implement numerous
                                   directives. Of six recommendations, BIA had implemented
                                   four and achieved moderate progress toward implementing the
                                   other two.


                                                A-1
Program Assessment and Rating Tool (PART) —
Review of Bureau of Indian Affairs Law Enforcement
Program
The Deputy Secretary asked OIG to review programs assessed
by OMB using the PART and to suggest improvements for
DOI programs that could not demonstrate results. The BIA
Law Enforcement Program fell in that category. In 2007,
Report Number Y-RR-BIA-0004-2006 discussed progress BIA
had made in implementing OMB recommendations from 2004.
BIA had drafted an interagency agreement to coordinate
activities with DOJ’s Community-Oriented Policing Services
Program; drafted a strategic plan for the OJS Corrections
Division; developed a prototype system for collection of
performance data; and completed numerous reviews and
inspections of field activities. However, we found that much
work was still needed to improve the reliability of performance
information.


                                  3rd Progress Report: Secretary’s Directives for
                                  Implementing Law Enforcement Reform
                                  As part of our ongoing examination of DOI’s law enforcement
                                  programs, we issued a report in 2009 detailing the progress
                                  made toward implementing Secretarial directives for law
                                  enforcement reform. Report Number PI-AT-MOA-0001-2008
                                  indicates that 10 of the 25 directives are still not fully
                                  implemented more than 6 years after they were made.
                                  Implementation of these directives is essential to furthering
                                  the progress that has been made in DOI’s law enforcement
                                  programs, and making the disquieting state of disorder found
                                  in 2002 a thing of the past.




                                              A-2
 APPENDIX B: SITES VISITED OR CONTACTED

               DEPARTMENTAL OFFICES
         (POLICY, MANAGEMENT AND BUDGET)
                        Office of Budget
                        Washington, DC
        Office of Planning and Performance Management
                        Washington, DC
Office of Law Enforcement, Security, and Emergency Management
                       Washington, DC

                 INDIAN AFFAIRS OFFICES

                      Office of Budget
                     Nashville, Tennessee
       Office of Facilities Management and Construction
                  Albuquerque, New Mexico
         Office of Internal Evaluation and Assessment
                        Reston, Virginia
             Office of Planning and Policy Analysis
                        Reston, Virginia
      Western Region Office of Tribal Self-Determination
                     Phoenix, Arizona

          BUREAU OF INDIAN AFFAIRS OFFICES

                   Office of Justice Services
                       Washington, DC
                                  Division of Corrections
     Office of Justice Services   Division of Law Enforcement Operations
       Central Office — West
    Albuquerque, New Mexico       Division of Professional Standards
                                  Division of Tribal Justice Support
                Law Enforcement District Office
                      Phoenix, Arizona

                              B-1
                     TRIBAL AGENCIES

                   Salt River Pima Maricopa
                      Scottsdale, Arizona
                      San Carlos Apache
                      San Carlos, Arizona
                       Tohono O’odham
                        Sells, Arizona
                    White Mountain Apache
                     Whiteriver, Arizona

                     OTHER AGENCIES

Department of Homeland Security / Customs and Border Protection
        Law Enforcement Center Outside Sells, Arizona
       Department of Justice / Bureau of Justice Statistics
                       Washington, DC
     Department of Justice / Federal Bureau of Investigation
                  Clarksburg, West Virginia
         Department of Justice / Office of Tribal Justice
                       Washington, DC




                               B-2
             APPENDIX C: TABLE OF SUGGESTIONS

NUMBER                              SUGGESTION                                  PAGE
                                     BUDGETING

         BIA and OJS should continue to refine budget formulation
  1      processes by accounting for existing shortfalls in operational          6
         capacity.

         OJS and OFMC should review the recent assessment of
         corrections facilities and needs to develop a reasonable range of
  2                                                                              7
         alternatives for management consideration and tribal
         consultation.
                                PERFORMANCE DATA

         BIA should 1) include mandates in PL-638 contracts for monthly
  3      crime report submittal and 2) develop a standardized procedure          8
         to ensure incidents are not reported more than once.

                           EVALUATION AND OVERSIGHT


         BIA, IA/IE&A, and OLESEM should work together to ensure and
  4                                                                              9
         protect the independence of evaluative and investigative work.


         BIA should work with the tribes to develop and implement new
         requirements in PL-638 contracts that strengthen the
  5                                                                              9
         independence of tribal court review teams in conducting
         complete, standardized assessments.
                                   COORDINATION

         DOI senior officials should work with their counterparts in DOJ,
         HHS, and other agencies, as necessary, to 1) coordinate federal
  6      action in Indian Country and 2) direct program officials at national    11
         and field levels to coordinate services across organizational
         boundaries as appropriate.




                                         C-1
  Report Fraud, Waste, Abuse,
     and Mismanagement
           Fraud, waste, and abuse in government
           concern everyone: Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
             wastef ul practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone:          24-Hour Toll Free            800-424-5081
                   Washington Metro Area        703-487-5435

By Fax:            703-487-5402

By Internet:       www. doioig.gov /hotline
